CERTIFICATE OF WORD COUNT
NO. 20-142
Michael Skidmore, as Trustee for the Randy Craig Wolfe Trust,
Petitioner,
v.
Led Zeppelin, et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the CALIFORNIA SOCIETY OF
ENTERTAINMENT LAWYERS MOTION FOR LEAVE TO FILE AND AMICUS IN SUPPORT OF PETITIONER
contains 3892 words, including the parts of the brief that are required or exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
September 10, 2020

SCP Tracking: Low-8383 Wilshire Blvd.-Cover Cream

